HHS/OIG, Audit - "Review of Medicare Part A Termination Costs Claimed By Horizon Blue Cross Blue Shield for the Period August 2000 through May 2001," (A-02-02-01005)
Department
of Health and Human Services
"Review of Medicare Part A Termination Costs Claimed By Horizon Blue
Cross Blue Shield for the Period August 2000 through May 2001," (A-02-02-01005)
January 24, 2003
Complete Text of Report is available in PDF format
(6.24 MB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this review
were to determine whether termination costs claimed by Horizon were allowable,
allocable and reasonable.
Our audit of Horizons Medicare Part A termination costs claimed on six termination
cost vouchers for the period August 2000 through May 2001, which totaled $3,736,186,
disclosed that the reported costs were overstated by $1,832,896.  Specifically,
reported termination costs improperly included:  $1,804,000 of unfunded
post retirement benefits, $15,529 of unallowable legal fees, $11,367 of severance
pay related to non-Medicare employee functions and, $2,000 of employee training
that did not benefit Medicare.  We recommended a financial adjustment for
$1,832,896.